HHS/OIG-Audit--"Allopathic Medicine Health Professions Student Loans Program at the University of Washington, Seattle, Washington, (A-05-98-00019)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at the University
of Washington, Seattle, Washington, (A-05-98-00019)
September 28, 1998
Complete Text of Report is available in PDF format
(62 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at the University of Washington.
The HPSL program was implemented through the Public Health Service Act. The
Health Resources and Services Administration (HRSA) has overall management responsibilities
for the program at the Federal level.
We determined that the University was appropriately using HPSL funds to provide
loans to eligible medical students and was generally in compliance with regulations
concerning the administration of loans. However, our audit revealed that the
University was carrying uncollectible loans in their accounting records.